U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Christopher Zamarripa v. United States of America,
S.Ct. No. 20-6668

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
16, 2020, and placed on the docket on December 21, 2020. The government’s response is due on
January 20, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6668
ZAMARRIPA, CHRISTOPHER
USA

KRISTIN MICHELLE KIMMELMAN
FEDERAL PUBLIC DEFENDERS OFFICE
727 E. CESAR E. CHAVEZ BLVD
B-207
SAN ANTONIO, TX 78206
915-534-6525
KRISTIN_KIMMELMAN@FD.ORG

